CERTIFICATE OF COMPLIANCE
No. 20-107
CEDAR POINT NURSERY AND FOWLER PACKING
COMPANY, INC.
Petitioner,
v.
VICTORIA HASSID, ETC., ET AL.
Respondents.
As required by Supreme Court Rule 33.1(h), I certify that the amici curiae brief of Western
Growers Association, et al. in support of petitioners contains 6,206 words, excluding the parts of
the brief that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

January 5, 2021

s/ Michael M. Berger
Michael M. Berger

